           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



    REMOVING SOCIAL SECURITY
  NUMBERS FROM MEDICARE CARDS

     May 2008   A-08-08-18026




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   May 2, 2008                                                                    Refer To:

To:     The Commissioner

From:   Inspector General

Subject Removing      Social Security Numbers from Medicare Cards (A-08-08-18026)


        OBJECTIVE
        Our objective was to determine the status of corrective actions the Social Security
        Administration had taken to address our recommendation regarding removal of Social
        Security numbers from Medicare cards, resulting from our January 2006 report,
        Hospitals’ Use and Protection of Social Security Numbers.

        BACKGROUND
        Medicare, authorized by Title XVIII of the Social Security Act, is a health insurance
        program for aged individuals and individuals with certain disabilities or end-stage renal
        disease. To assist in the administration of this program, the Centers for Medicare and
        Medicaid Services (CMS) 1 issues identification cards to Medicare beneficiaries. These
        identification cards display the individual’s SSN (Medicare Claim Number) or the
        primary wage earner’s SSN, as shown in Exhibit 1. 2




        1
            CMS is a Federal agency within the U.S. Department of Health and Human Services.
        2
         In its June 2007 testimony, Social Security Numbers: Use is Widespread and Protection Could Be
        Improved (GAO-07-1023T), the Government Accountability Office estimated 42 million Medicare cards
        displayed entire 9-digit SSNs.
Page 2 - The Commissioner

                                          Exhibit 1: Medicare Card




Although no single Federal law regulates overall use and disclosure of SSNs, the
Social Security Act 3 and the Privacy Act of 1974 4 contain provisions that govern
disclosure and use of SSNs. Additionally, the Office of Management and Budget (OMB)
issued a memorandum to Federal agencies on safeguarding against, and responding
to, breaches of personally identifiable information, including SSNs. 5 Federal agencies
are required to reduce the volume of collected and retained personally identifiable
information to the minimum necessary, including establishment and implementation of
plans to eliminate unnecessary collection and use of SSNs. 6

Our 2006 audit identified vulnerabilities associated with displaying SSNs on
medical-related documents and identification cards. We recommended that SSA
encourage CMS to remove SSNs from its identification cards and partner with them to
develop an alternative identifier that met both agencies’ needs. SSA agreed with the
intent of our recommendation and stated it would work with CMS to ensure the SSN is
protected from unnecessary and/or unauthorized disclosure.

To determine the status of corrective actions taken, we interviewed representatives from
SSA’s Offices of Public Service and Operations Support and Disability and Income
Security Programs and CMS’ Chief Operating Officer. We also contacted several
Federal agencies that have taken action to remove SSNs from identification cards. See
Appendix B for additional information on our scope and methodology.

3
    42 U.S.C. § 405(c)(2)(C)(viii) and 42 U.S.C. § 408(a)(8).
4
 The Privacy Act of 1974, 5 U.S.C. § 552a, note; Pub. L. 93-579, 88 Stat. 1896 (1974) at §§ 7(a) and
7(b).
5
 OMB Memorandum for the Heads of Executive Departments and Agencies, M-07-16, Safeguarding
Against and Responding to the Breach of Personally Identifiable Information, May 22, 2007.
6
    Id. at 2.
Page 3 - The Commissioner


RESULTS OF REVIEW
Despite the increasing threat of identity theft, CMS continued to display SSNs on
identification cards it issued to Medicare beneficiaries. Displaying such information on
Medicare cards unnecessarily places millions of individuals at-risk for identity theft. This
is particularly troubling because CMS instructs individuals, many of whom are elderly, to
carry their Medicare card with them when away from home. We do not believe a
Federal agency should place more value on convenience than the security of its
beneficiaries’ personal information.

In response to growing public and congressional concern over unnecessary exposure of
SSNs, CMS reviewed its practice of displaying SSNs on Medicare cards and provided
Congress a report 7 containing initial cost estimates and a potential approach for
transitioning to a non-SSN Medicare identifier. CMS officials told us they had not
received a response from Congress, and the Agency had no position regarding the
removal of SSNs from Medicare cards. SSA responded stating it supported the goal of
limiting the display of SSNs to reduce fraud and identity theft and outlined the financial
and systems impact such a change would have on the Agency. Based on our previous
audit and investigative findings, we know the unnecessary display of SSNs increases
the potential for dishonest individuals to obtain and misuse them, creating SSN integrity
issues. To help address the growing problem of identity theft, some Federal agencies
have taken action to remove SSNs from identification cards. Because the subject of
this report involves possible legislative and policy changes for CMS, we plan to provide
a copy to the U.S. Department of Health and Human Services, Office of the Inspector
General.

STEPS TAKEN TO REMOVE SSNs FROM MEDICARE CARDS

In its 2006 report, CMS outlined the timeframe and cost of transitioning to a non-SSN
based Medicare identifier. Specifically, CMS estimated that moving to a non-SSN
based beneficiary identifier would be an 8- to 13-year project that included a fixed
3-year preparation period. The estimated timeframe for changing all beneficiary
identifiers would be no sooner than 5 years and no longer than 10 years. Total costs for
implementing the change in 5 years after the preparation period was estimated to be
over $300 million. CMS developed the report based on the assumption that it would be
responsible for generating and assigning a new identifier that would only be used for
Medicare business. If funded, CMS would assign each beneficiary a new, unique
Medicare beneficiary identifier over time. As of September 2007, CMS had not received
a response from Congress.

CMS officials told us they did not consider the report to Congress to be an in-depth
study. They described the study as more of a cursory review and stated they would
need to perform a more detailed study if Congress mandated CMS to remove SSNs
from Medicare cards. CMS officials told us they were not opposed to removing SSNs
7
 Removal of Social Security Number from the Medicare Health Insurance Card and Other Medicare
Correspondence, October 2006.
Page 4 - The Commissioner


from Medicare cards but questioned what identifier the Agency would use in place of the
SSN. In fact, CMS officials told us they preferred that SSA develop a new identifier
because it would be less costly. CMS officials told us they are only looking at potential
options for replacing SSNs on Medicare cards and any selected approach would
depend on the funding Congress provided and the length of time given to implement
changes. CMS officials told us they had no position regarding the removal of SSNs
from Medicare cards.

SSA commented on the report stating it supported the goal of limiting the display of
SSNs to reduce fraud and identity theft. SSA also stated that systems changes, training
for front-line employees and handling public inquiries would increase Agency costs.
SSA estimated the 5-year costs to be about $30 million but expected CMS to reimburse
the costs. Additionally, SSA stated it was imperative that the format of any new
Medicare number be structured differently from the SSN and should be clearly
identifiable, at a glance, as a non-SSN. SSA officials with whom we spoke told us they
did not believe it would be appropriate for SSA to pursue its own legislation to require
that CMS remove SSNs from Medicare cards. Officials told us they believed CMS could
take action to remove SSNs from Medicare cards without legislation.

POTENTIAL RISKS ASSOCIATED WITH DISPLAYING SSNs ON IDENTIFICATION
CARDS

CMS’ display of SSNs on Medicare cards entails certain risks. Although there are no
data on the extent to which Medicare cards contribute to identity theft, each time an
individual divulges his or her SSN, the potential for someone to illegally gain access to
personal information increases. For example, many individuals carry their Medicare
cards in their wallets or purses and could become victims of identity theft should
dishonest individuals steal such items or lift their Medicare number from a beneficiary
card or medical document. In fact, instructions on the back of Medicare cards direct
individuals to carry the card with them when they are away from home. This practice,
according to the consumer advocacy organization, Consumers Union, “is putting senior
citizens at risk for identity theft.” Consumers Union further stated “there is no excuse for
leaving Medicare beneficiaries vulnerable to identity theft with a thinly disguised Social
Security number on their membership card.” Consumers Union relayed its concerns to
CMS, pointing out that many commercial insurance companies had taken steps to
remove SSNs from identity cards and recommended that CMS take similar steps to
safeguard the identities of Medicare recipients. CMS informed Consumers Union that it
had considered removing SSNs from Medicare cards but had no definite plans for doing
so. 8 In contrast, SSA recommends that individuals keep their Social Security card in a
safe place and not carry it with them unless it is needed to show an employer or service
provider. 9

8
 Social Security Numbers on Medicare Cards Put Consumers at Risk For Identity Theft,
October 20, 2004.
9
 Social Security Administration, Your Social Security Number and Card, Electronic Leaflet, SSA
Publication No. 05-10002, October 2006.
Page 5 - The Commissioner


In addition, the Government Accountability Office (GAO) has reported on the
vulnerabilities associated with the display of SSNs on identity and eligibility cards issued
under Government auspices. 10 Specifically, GAO stated that cardholders are often
required to use their card at the point of service, which means a practical need to carry
and display it often, thus increasing the likelihood for accidental loss, theft, or visual
exposure. GAO concluded that continued display of SSNs on identification cards
presented a risk of identity theft.

SOME FEDERAL AGENCIES ARE TAKING STEPS TO REMOVE SSNs FROM
IDENTIFICATION CARDS

Incidences of identity theft and the recognition that SSNs are linked to vast amounts of
personal information have led some Federal agencies to remove SSNs from their health
insurance or identification cards. For example, in September 2007, the Department of
Veterans Affairs (VA) issued a report on its efforts to eliminate the unnecessary
collection and use of SSNs. 11 In its report, VA stated that new veteran identification
cards no longer displayed SSNs. Additionally, VA removed SSNs from cards issued for
its specialized health programs, letters, correspondence, prescription bottles, mailing
labels, and billing statements. VA has also begun exploring new ways of identifying
veterans and employees in its systems and processes. An official with VA’s Office of
Information and Technology told us VA prefers to take steps now to curtail the display of
SSNs rather than wait for “the ultimate solution.”

In the past few years, the Department of Defense (DoD) has reissued about 4.5 million
health care cards that no longer display SSNs. A DoD official with whom we spoke told
us it issues about 2 million new cards a year, and none of these cards display SSNs. In
addition, DoD is moving forward with plans to develop new military identification cards
that would protect the SSNs of approximately 10 million card holders.

The Office of Personnel Management directed all heath insurance carriers affiliated with
the Federal Employees Health Benefit Program to eliminate SSNs from insurance cards
as soon as financially practical. 12 In making this policy change, the Office of Personnel
Management acknowledged that SSNs can serve as a critical link in identity theft cases,
identity creation, and other crimes. In the past few years, almost all health insurance
carriers have removed SSNs from their health insurance cards. For example, a




10
  Social Security Numbers: Governments Could Do More to Reduce Display in Public Records and on
Identity Cards (GAO-05-59), November 2004 and Social Security Numbers: Use is Widespread and
Protection Could Be Improved (GAO-07-1023T), June 21, 2007.
11
  Eliminating the Unnecessary Collection and Use of Social Security Numbers at the Department of
Veterans Affairs, September 2007.
12
  Office of Personnel Management Letter No. 2003-28, Avoiding Potential Misuse of Social Security
Numbers in the Federal Employees Health Benefits Program, September 5, 2003.
Page 6 - The Commissioner


Blue Cross and Blue Shield of Texas official told us they removed SSNs from about
10 million insurance cards (for both Federal and non-Federal subscribers). Although
Blue Cross and Blue Shield still uses SSNs internally, they developed a unique identifier
for use on insurance cards and correspondence.

Recently proposed Federal legislation, if implemented, may help address the growing
problem of identity theft. For example, the Social Security Number Privacy and Identity
Theft Prevention Act of 2007 (H.R. 3046) would make SSNs less available to potential
identity thieves by limiting use of the SSN as an identifier by government and business.
Among other provisions, the proposed legislation would prohibit the display of SSNs on
Government checks, employer-issued identification cards or tags, and Medicare cards.
Until such legislation becomes law, we believe SSA should proactively work with CMS
to lay the groundwork for removing SSNs from Medicare cards. Given the millions of
individuals at-risk for identity theft and OMB’s directive to eliminate unnecessary uses of
SSNs, we believe immediate action is needed to address this significant vulnerability.

CONCLUSION AND RECOMMENDATIONS
Despite the potential risks associated with displaying SSNs on Medicare cards, CMS
continues this practice. While we recognize SSA cannot prohibit CMS from using SSNs
as its primary beneficiary identifier, we believe it can help reduce the potential threats to
SSN integrity by taking a proactive role in supporting legislation that would mandate the
removal of SSNs from Medicare cards. We recognize that such legislation could be
inconvenient for both agencies and may result in additional costs. However, given the
potential threats to SSN integrity, such a challenge should not discourage SSA from
taking additional steps to safeguard SSNs.

Accordingly, we recommend that SSA:

1. Proactively work with OMB and Congress to expedite the removal of SSNs from
   Medicare cards in a manner that ensures compliance with Federal guidelines and
   consistency with approaches taken by other Federal agencies.

2. Continue to partner with CMS to develop an alternative Medicare identifier that
   meets both agencies’ needs.
Page 7 - The Commissioner


AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix C.




                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                    Appendix A

Acronyms
CMS    Centers for Medicare and Medicaid Services
DoD    Department of Defense
VA     Department of Veterans Affairs
GAO    Government Accountability Office
OMB    Office of Management and Budget
SSA    Social Security Administration
SSN    Social Security Number
                                                                          Appendix B

Scope and Methodology
To accomplish our objective, we

•   interviewed representatives from the Social Security Administration’s (SSA) Offices
    of Public Service and Operations Support and Income Security Programs;

•   interviewed the Chief Operating Officer for the Centers for Medicare and Medicaid
    Services;

•   interviewed the following representatives from the Department of Veterans Affairs:
    the Associate Deputy Assistant Secretary for Privacy/Records Management and the
    Director of the Health Eligibility Center;

•   interviewed a representative from the Department of Defense’s Defense Manpower
    Data Center;

•   interviewed a representative from the Office of Personnel Management’s Insurance
    Services Program;

•   interviewed a representative from Blue Cross and Blue Shield of Texas to discuss
    their move to a non-SSN based identifier on health cards; and

•   contacted the Federal Trade Commission’s Division of Privacy and Identity
    Protection to determine if they maintained statistics on incidents of identity theft
    resulting from SSNs on Medicare cards.

The SSA entity reviewed was the Office of the Deputy Commissioner for Operations.
We conducted this performance audit from July through November 2007 in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      April 15, 2008                                                         Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Removing Social Security Numbers from
           Medicare Cards" (A-08-08-18026)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to Ms.
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "REMOVING SOCIAL SECURITY NUMBERS FROM MEDICARE
CARDS" (A-08-08-18026)


Thank you for the opportunity to review and comment on the draft report. We appreciate the
report’s acknowledgement that we have taken preliminary steps to assess the impact and costs
involved with removing Social Security numbers (SSN) from the Medicare card. However, as
the report also indicates, we cannot mandate that the Centers for Medicare and Medicaid
Services (CMS) utilize an alternative identifier. We take seriously our responsibility to
safeguard SSNs and prevent improper release of personally identifiable information (PII) and
will continue to work with CMS to ensure SSNs are protected from unnecessary and/or
unauthorized disclosure. Our responses to the specific recommendations are provided below.

Recommendation 1

Proactively work with the Office of Management and Budget (OMB) and Congress to expedite
the removal of SSNs from Medicare cards in a manner that ensures compliance with Federal
guidelines and consistency with approaches taken by other Federal agencies.

Response

We agree that removal of SSNs from the Medicare cards will reduce fraud, identity theft, and the
improper release of PII. Congress has been very active in the area of PII as it pertains to theft.
OMB has established PII policies to assure that Federal agencies safeguard the personal
information they manage. We will be glad to work with Congress, OMB, and CMS to develop
steps necessary to carry-out this recommendation. We agree that removal of SSNs from
Medicare cards would reduce opportunities for fraud, identity theft, and improper release of
personally identifiable information (PII). As stated in the report, SSA estimates that the 5-year
cost for systems changes, training for front-line employees, and handling public inquiries, would
increase Agency costs by $30 million. In order to carry out the recommendation, SSA would
need this additional funding.

Recommendation 2

Continue to partner with CMS to develop an alternative Medicare identifier that meets both
agencies’ needs.

Response

We agree that an alternative Medicare identifier would meet both agencies' needs. Although
CMS would be the lead for any effort to identify, select, and implement an alternative identifier,
we look forward to working with CMS to develop this identifier. In the interim, we will
continue to work with CMS to ensure SSNs are protected from unnecessary and/or unauthorized
disclosure.




                                               C-2
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, 205-801-1650

   Jeff Pounds, Audit Manager, 205-801-1606

Acknowledgments

In addition to those named above:

   Charles Lober, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-08-08-18026.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and procedures,
internal controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and
Quality Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                        Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
